<html>
<title> - CHALLENGES TO HEMISPHERIC DEMOCRACY: ELECTIONS, COUPS AND INSTABILITY</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 CHALLENGES TO HEMISPHERIC DEMOCRACY: ELECTIONS, COUPS AND INSTABILITY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JUNE 14, 2000

                               __________

                           Serial No. 106-127

                               __________

    Printed for the use of the Committee on International Relations


 Available via the World Wide Web: http://www.house.gov/international 
                               relations

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
65-849 CC                    WASHINGTON : 2000





                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                 Subcommittee on The Western Hemisphere

                  ELTON GALLEGLY, California, Chairman
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
CASS BALLENGER, North Carolina       MATTHEW G. MARTINEZ, California
CHRISTOPHER H. SMITH, New Jersey     ROBERT MENENDEZ, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT WEXLER, Florida
MARSHALL ``MARK'' SANFORD, South     STEVEN R. ROTHMAN, New Jersey
    Carolina                         JIM DAVIS, Florida
KEVIN BRADY, Texas                   EARL POMEROY, North Dakota
PAUL E. GILLMOR, Ohio
               Vince Morelli, Subcommittee Staff Director
           David Adams, Democratic Professional Staff Member
                    Kelly McDonald, Staff Associate
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Hon. John Conyers, Jr., a Representative in Congress from the 
  State of Michigan..............................................     5
Ambassador Lino Gutierrez, Principal Deputy Assistant Secretary 
  for the Bureau of Western Hemisphere Affairs, Department of 
  State; accompanied by Rand Beers, Assistant Secretary for 
  International Narcotics and Law Enforcement Affairs............    10

                                APPENDIX

The Honorable Elton Gallegly, a Representative in Congress from 
  California and Chairman, on Subcommittee on the Western 
  Hemisphere.....................................................    24
The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    25
Mr. Robert Menendez..............................................    30
Mr. John Conyers, Jr., House International Relations Committee,..    32
Ambassador Lino Gutierrez........................................    35

 
 CHALLENGES TO HEMISPHERIC DEMOCRACY: ELECTIONS, COUPS AND INSTABILITY

                              ----------                              


                        Wednesday, June 14, 2000

                  House of Representatives,
                Subcommittee on Western Hemisphere,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:13 p.m. in 
room 2172, Rayburn House Office Building, Hon. Elton Gallegly 
(Chairman of the Subcommittee) presiding.
    Mr. Gallegly. We will now go into the hearing. If the 
witnesses would please come forward.
    The purpose of our hearing today is to examine recent and 
forthcoming events in several Latin American and Caribbean 
nations to analyze how these events have or could impact 
democratic gains and the overall political stability in the 
region. For more than a decade, Western Hemisphere political 
analysts and academic experts have pointed with optimism to the 
continued growth and strengthening of democracy in Latin 
America and in the Caribbean. The focal point of the 
hemisphere's success story thus far has been the number of 
free, fair and transparent elections which have taken place at 
all levels of government over this period. Up until recently, 
most elections in the region have been very successful. Yet, 
most know that elections alone do not make a strong democracy. 
Other elements such as well-organized civil societies, 
independent judiciaries, a free press, active political parties 
and militaries willing to subordinate themselves to the elected 
civilian authority, are all required before any nation can 
truly be defined as a strong modern democracy.
    Today, the glitter of progress is beginning to tarnish in 
some parts of the region as electoral processes have broken 
down, such as in Haiti and Peru, where new patterns of populist 
authoritarianism seem to be emerging, such as in Venezuela and 
Peru, and where restless militaries, twice in the past 6 
months, in Ecuador and Paraguay, have staged unsuccessful coups 
d'etat. This is not to say that all parts of the hemisphere are 
taking steps backward. We hope these may be only one-time 
temporary setbacks.
    But recent events in several countries in the region, 
coupled with the inability of economic reforms initiated 
earlier in the decade to adequately address pressing social 
problems, have cast a dark cloud over the democratization of 
parts of the region.
    Today, the Subcommittee has asked the Department of State 
to review these particular issues with us and to assess whether 
these events can justify criticism that Latin democracy is in 
decay. We have also asked the Department to provide an update 
on the current counternarcotics situation in Colombia.
    [The prepared statement of Mr. Gallegly appears in the 
appendix.]
    Mr. Gallegly. Before we go to the witnesses, are there any 
Members--I see the Chairman of our Full Committee, the 
gentleman from New York, who would like to make an opening 
statement.
    Mr. Gilman. Thank you for allowing me to make a statement. 
I want to thank you for scheduling this important hearing.
    The wave of democracy in our hemisphere has crested. Now to 
finish the metaphor, the breakers are starting to roll toward 
shore. I am pleased that Ambassador Gutierrez is here to give 
us his insights. Attempted coups in Paraguay and political 
violence and manipulated elections in Haiti are recurring 
problems. Both countries are emerging as major centers of 
narcotics-related criminal activity. The Haitian government is 
becoming an increasingly repressive narco-state.
    The initial hopes that surrounded the May 21st elections in 
Haiti sadly have been eclipsed. This flawed electoral process 
has seen among other improprieties, political killings, the use 
of a politicized Haitian national police force to arrest and 
intimidate opposition politicians, the manipulation of 
supposedly independent electoral council by the government and 
the ruling Lavalas Family Party and falsification of election 
results.
    The government of Haiti has been given massive resources 
and every benefit of the doubt by the international community. 
It is time to stop applying a double standard to Haiti.
    Central America is also witnessing increasing tensions over 
border disputes that could yet break into open conflict. In 
Nicaragua, there are persistent troubling reports of official 
political corruption and abuses of authority.
    The Andean region is in turmoil. The situation in Colombia 
is deteriorating by the minute. The production of illegal drugs 
in Colombia and the violence that these drugs fuel are out of 
control.
    Just yesterday we learned that Colombian National Police 
director General Rosso Jose Serrano announced his retirement. 
We know General Serrano has been a true Colombian patriot. Our 
Nation owes him a great debt of gratitude for the way he has 
been fighting the narcotics problem. We must pay that debt by 
continuing to support the reforms and effective drug fighting 
capabilities that general Serrano instilled in his Colombian 
National Police.
    I might add that 5,000 of his narcotics police have died in 
the last 10 years trying to prevent the illicit narcotics from 
leaving that country and going into our Nation and other 
nations.
    In the wake of the collapse of Venezuela's political system 
under the weight of years of corruption, that strategic nation 
is now headed down an uncertain path. The situation in Ecuador, 
which experienced a coup earlier this year, remain extremely 
tenuous. Bolivia has done a good job of eradicating coca, but 
it too is experiencing recurring unrest.
    Just last month, Peruvian President Alberto Fujimori 
conducted an election that the Organization of American States, 
Election Observation Mission termed far from free and fair. The 
OAS Mission carefully documented a number of key failings, 
including the government's manipulation of key institutions, 
harassment of opposition candidates, a lack of balanced access 
to the media, illegal use of state resources by the government, 
and the need for improved election management.
    I have been a strong supporter of our engagement with Peru 
on counternarcotics matters. I will continue to support our 
counternarcotics cooperation with Peru. However, we cannot 
ignore the fact that Peru's increasingly authoritarian and 
repressive government has hollowed out that nation's democratic 
institutions to perpetuate itself in power.
    As a Nation, we must be prepared to respond to that 
challenge. If elections in Peru and Haiti are not free and 
fair, we cannot pretend that they are. We must not allow 
ourselves to be lulled into any sense of complacency. 
Undemocratic elements throughout the hemisphere are carefully 
watching our Nation's reaction to the manipulation of those 
recent elections.
    In Mexico, National Democratic Institute for International 
Affairs election observers have pointed out that, 
``unfortunately, it is widely believed that the closeness of 
the election has led to certain practices, particularly by the 
ruling party, that are reminiscent of past elections.'' We 
should not ignore that kind of a warning about a nation as 
important to us as Mexico, our next-door neighbor.
    With a few notable exceptions, the response from our 
neighbors in the hemisphere to recent threats to democracy has 
regrettably been muted. Brazil, in particular, has not risen to 
provide sorely needed leadership in the hemisphere. What we do 
here and now in the face of what is happening in the Americas 
will define how we, as a hemispheric community, will respond to 
the continued erosion of democratic institutions and the other 
serious security and economic crises we that we are facing.
    Leaders in countries who not long ago looked to our Nation 
to help them recover their own nations' democracy need to think 
hard about this critical juncture in our history. They should 
join with our Nation in defending democracy. By the same token, 
our own administration cannot afford to coast until November. 
The wake-up call is well upon us. I thank you again, Mr. 
Chairman, for taking a hard look at these hemispheric problems.
    Mr. Gallegly. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gilman appears in the 
appendix.]
    Mr. Gallegly. The gentleman from New Jersey, Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman. I want to thank 
Ambassador Gutierrez for agreeing to come speak with us on a 
very important topic, which is, I believe, very timely: The 
challenges to hemispheric democracy. The fact that we have a 
lot to talk about today is both discouraging and telling. Of 
the fact that democracy is threatened, let there be no doubt. 
What I hope we can begin to do is twofold: First, I hope we can 
stop measuring democracy by elections alone. We all have said 
it and heard it before, elections alone do not a democracy 
make.
    But we continue to measure democratic advance by the number 
of free and fair elections held. We should measure instead the 
responsiveness and accountability of executives and 
legislatures, the independence and fairness of judiciaries, the 
strength and representative nature of political parties, the 
freedom of expression in the media, and the public at large, 
the level of real civilian control over the military, and the 
organizational strength of and level of participation allowed 
civil society. Most important, these democratic institutions 
and processions must be supported through continued and 
enhanced technical support programs.
    Second, we must recognize that the underlying threats to 
democracy--poverty, injustice, lack of universal education, 
lack of access to land and corruption--remain constant, not 
having improved measurably in the last 20 years. Unless and 
until these factors are addressed, and at the same time that 
weak democratic institutions are strengthened, there can be no 
lasting democracy.
    We should also remember that Latin Americans recognize the 
threats, too. We are not alone in raising this red flag. 
Shortly after Secretary Albright's tough speech at the Council 
of America's annual conference on May 1st, commentators 
throughout the hemisphere raised their voices in agreement. 
Writing in newspapers from Santo Domingo to Santiago, Caracas 
to Quito, observers expressed a collective sense of doom. 
Alarmed over a general ``democratic deficit,'' ``lack of strong 
parties,'' ``outdated oligarchies,'' and conditions ripe with 
``totalitarian temptations,'' recent commentary has reflected 
an awareness of the public's growing dissatisfaction with 
``low-quality democracy.'' At the same time, comments from our 
south also show a certain resentment toward the United States, 
with many observers offended by the only passing reference 
Latin America seems to be getting in the U.S. Presidential 
campaign; and by the lack of a clear policy toward the region.
    In their own recognition of the challenges they face, Latin 
Americans are clearly reacting to the fact that, while 
electoral democracy in Latin America has advanced in the past 
20 years, reductions in poverty and corruption have not. Two 
decades ago, more than half of the countries in the region were 
under authoritarian rule including all but four outside of the 
non-English speaking Caribbean. Today, only one country has not 
had even one democratic election. At the same time, however, 
poverty has remained constant, even gotten slightly worse. This 
year, more than 36 percent of households in Latin America are 
living in poverty. In 1980, the figure was 35 percent.
    There does seem to be some correlation between economic 
progress and democratic progress. Certainly Argentina, Chile, 
and Uruguay have recently consolidated their relatively strong 
democracies with elections that are beginning to be called, as 
was the case recently in Argentina, ``boring.'' This is good 
news and it corresponds to the southern cone region's relative 
prosperity. In these three countries, fewer than 20 percent of 
households live in poverty, and this compares favorably to the 
rest of the region where an average of more than 40 percent of 
the population is poor.
    There is not always a direct correlation though between 
riches and democracy. Venezuela with its oil and Colombia with 
its abundant natural resources, should be relatively wealthy 
and should have built up a middle class over the years. 
Corruption, bankrupt judicial systems and the history of power 
by oligarchy have prevented this. Meanwhile, poor central 
American countries have faired relatively well lately on the 
democratic scale.
    Let me close by saying that I believe that poverty does 
not, in and of itself, prevent the establishment and 
strengthening of democratic institutions. However, we are 
seeing a situation where any progress that has been made in the 
past 20 years on the democratic front is threatened by the lack 
of movement on the economic front. People are discouraged 
because greater electoral democracy has not given them a 
greater say in the political process, or a fair hearing in the 
courts or an end to corruption--the necessary ingredients for a 
more just economic pie. In turn, democracy's promise becomes 
disillusionment.
    Recent polls conducted throughout the hemisphere are 
particularly disheartening and should be heeded. One poll 
showed that in no Latin American country do the majority of 
citizens feel they live in a true democracy. In Mexico, 
according to this poll, over 10 percent of Mexicans believe 
they live in a democratic system. The opinion research shows a 
``worrisome indifference'' to democracy.
    So I hope to hear from you, Mr. Ambassador, what the United 
States is doing and will continue to do, working with Democrats 
in Latin America to combat this worrisome indifference. If we 
have spent a fortune during the 1980's in promoting democracy--
particularly in areas that you have been privileged to 
represent this country in--it is amazing to me that we would 
not take the necessary steps to cement the democratic 
underpinnings that we have first created and that now could 
flourish in this new century of opportunity. It is a great 
challenge to us, and we need to pay a lot of attention to our 
neighbors to the south because the only time we pay attention 
is when we have problems. Then it is too late. We need to pay 
attention now when we can create an opportunity of hope and 
prosperity for the entire region.
    Thank you, Mr. Chairman.
    Mr. Gallegly. Thank you, Mr. Menendez. Next we will turn to 
our colleague and good friend from the State of Michigan, Mr. 
John Conyers who was part of a congressional observation team 
that just recently attended the elections in Haiti. Welcome, 
Mr. Conyers.

 STATEMENT OF THE HON. JOHN CONYERS, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Conyers. Thank you very much, Chairman Gallegly. As a 
neighbor of mine in the building and as a colleague on 
Judiciary, I have appreciated working with you across the 
years. It is my honor to testify before your Subcommittee in 
this particular important Committee. I was deeply impressed by 
the statement of our colleague, Mr. Menendez, who I think has 
described a much larger circumstance that is still an ongoing 
challenge in trying to bring constitutional government to other 
nations. We have to observe that even in our process, we are 
working on improving that same objective in our own country. Of 
course, my friend, Mr. Bill Delahunt, who was one of the 
designated international observers from the Congress to go on 
May 21, Sunday, for the first and very important elections 
there, I am happy to make a brief report. I have a statement 
that I would like to have included in the record.
    Mr. Gallegly. Without objection.
    Mr. Conyers. I would also like to make sure that everyone 
has a copy of it. Because I am going to merely summarize from 
this statement, because when I know that Ambassador Gutierrez 
is coming up and has been waiting and we have our good friend 
Ambassador Steinberg here also in the room, I want to be 
available for any comments or questions that the Committee may 
have. I want to observe in the beginning that I have enjoyed 
the good relationships with Chairman Ben Gilman of this 
Committee on the subject of Haiti who, when I first began going 
there, he was already a frequent visitor to this small, 
beleaguered, struggling nation, trying to make things work. I 
believe that he still is.
    On May 21st, the Haitian people showed their strong desire 
for democracy. It was clear in the early hours of the morning, 
5:30 a.m., that dozens of voters were waiting at the first 
sight we had been assigned to attend, waiting to cast their 
ballot at a polling station that wasn't going to open until 7 
a.m. So we were very pleased about this being the general 
circumstance across the country and across certainly the half 
dozen or more polling sights that our congressional CODEL and 
staff had been assigned to visit.
    Some of our teams had been assigned to distances so far 
away that we didn't see them until we were getting ready to 
depart. The afternoon that they left, they finally showed up in 
a very timely fashion, I would say. Of course, we would have 
waited for them. But the fact of the matter is that people were 
dispersed to work with OAS and other delegations, the 
Caribbean, CARICOM had people there, the European community had 
representatives there, and other countries had independent 
observers there. So it is my view that we were literally 
flooding the country with outside independent eyes and ears to 
help determine whether or not these elections would and could 
come off in a manner that would attain a level of credibility.
    With me was Mrs. Corrine Brown of Florida, and Mr. Bill 
Delahunt of Massachusetts and a number of our staff. We 
witnessed dedicated poll workers, we witnessed party observers, 
we witnessed the opening and counting of ballots. We visited 
the provisional electoral counsel which administered the 
election process a number of times. Its president, Mr. Manus 
and our group got to know each other on a first-name basis. It 
seemed to me that what we saw was very refreshing, with the 
exception of one possibly election related death, outside of 
some pushing and shoving at the polling stations, there was a 
very low level of disorderly conduct and no violence.
    We all had met and we were briefed very expertly by our 
embassy who themselves were working with other organizations, 
but most particularly the OAS to make sure that what we all saw 
and heard could be compared. There was a tremendous turnout on 
Election Day. It is calculated, as the results have not been 
concluded, still somewhere between 50 to 60 percent is the 
repeated estimation of voter turnout. I think that the 
registration rates were cards, registration cards, and with 
laminated photographs were issued in color, went up to 
somewhere about 80 percent. What determined for me was that the 
getting of the cards for registration was not just to be the 
proud possessor of a color ID, which for many was their first, 
but they really, as we saw on Election Day, really wanted to 
participate.
    It was wonderful to visit some polling places that were 
crowded, people were standing in line close together, in the 
hot sun, and then in the evening when we came back, there were 
children playing in this school yard, there were a few elders 
standing around, and they were getting ready to count the 
votes. Everybody had been taken care of. That was not the case, 
of course, in all the voting regions. In Grandanse they just 
had an election last week that had, by decree of the CEP, been 
put off until a later date. Those elections are still being 
counted.
    So what we have here is I think a very important turning 
point in which the election procedures and constitutional 
issues involved have been and are still being approached in a 
very intelligent way. 29,000 candidates, Mr. Chairman, competed 
for 11,000 local regional and parliamentary offices. So this 
was a very important milestone. We now are confronted with the 
circumstance in which there was a difficulty about the count 
which took place after we left.
    We have been receiving reports that the method of 
calculation, the one that we would traditionally use, is 
different from the one they have customarily used in the 
preceding elections. We have a letter that went to the OAS 
explaining that, that has been translated for us. We feel that 
the Haitian National Police deserve a great deal of credit 
along with the Election Commission for making sure that the 
election itself ran as fairly as it could.
    I do appreciate that there have been arrests for gun law 
violations and other activities that followed, that occurred to 
political leaders, including some members of Famni Lavalos. But 
we want to remember that during that period, motorcycle use was 
prevented, the carrying of gun permits was revoked, and other 
safety precautions were enacted merely to make sure that had as 
a nonviolent, nondisruptive election as possible.
    So we are still awaiting the results. We are hopeful that 
the CEP will consider the criticisms of the OAS and that they 
will reach some harmonious point of conciliation so that they 
can both move into a position for the announcement of the 
results of the election, and then the passing of judgment on 
the elections in terms of whether they have reached a 
sufficient level of credibility. All that I can attest to you 
is that from what we saw on the day before the election, the 
day of the election, and the day after the election, we were 
very satisfied that both the police, the Electoral Commission, 
and most of all, the citizens of Haiti, were very much 
concerned about restoring constitutional government to their 
land.
    I would merely conclude by pointing out that your colleague 
on the Committee, Don Payne, the Ranking Member of the 
Subcommittee on Africa, has been enormously helpful with us in 
dealing with this subject matter with this almost small 
bipartisan Haiti caucus that has been formed in the Congress we 
wish to be of any assistance to your Subcommittee and the 
larger Committee of which you are a part. Thank you for 
allowing me to make these remarks before Ambassador Gutierrez.
    [The prepared statement of Mr. Conyers appears in the 
appendix.]
    Mr. Gallegly. Thank you for your testimony. It appears that 
you certainly have been impressed, and as you said, satisfied 
that it looks as though we are making progress there. Is that a 
fair assessment?
    Mr. Conyers. Yes, it is. Because you know, we are making 
progress, I am also disturbed about things that could have 
happened that didn't happen. We were disturbed about ballots 
that were late and were found strewn around after the vote. We 
didn't know whether they had been counted or not. There were a 
number of things that are important, but the overall thing to 
me, Chairman Gallegly, is that Haiti is at a very critical 
point. They are moving toward restoring--being restored to the 
family of nations and operating under constitutional 
governance. This election is very critical to move on to the 
runoffs which, as you know, are less than 2 weeks away. They 
are likely to go much more smoothly because the mass of 
thousands of pieces of candidates and hundreds of pieces of 
paper which was pretty daunting since the great majority of the 
population, the citizenry is not literate, that we would be 
moving into a much easier circumstance. In that sense, we feel 
that the May 21st elections were absolutely critical to any 
movement toward reaching the goal of constitutional governance.
    Mr. Gallegly. Thank you very much. Does anyone else have a 
question or comment for Mr. Conyers?
    Mr. Delahunt. If I may, Mr. Chairman. Not being a Member of 
this particular Subcommittee, I want to thank you for allowing 
me to speak.
    Mr. Gallegly. You are among friends.
    Mr. Delahunt. Thank you very much. It is my understanding, 
and I know that it is the understanding of Mr. Conyers, that 
the most recent election that was held this past Sunday, in the 
department of the Giandance was also held without any violence, 
a large turn-out, and seemed to be successful which I think 
underscores the observations that have been made by Mr. Conyers 
as to the overall success with some exceptions in terms of the 
May 21st elections.
    Mr. Conyers. You are absolutely right, Bill. That election 
was postponed by mutual consent and has taken place without any 
violence at all that has been reported, at least since we have 
been back. It is consistent with the overall trends and the 
effort on everyone's part. I think Pierre Denize, the national 
police chief, with no military and whose forces were being 
retrained by the Department of Justice specialists, and who has 
gone through tremendous challenge in terms of maintaining law 
and order nationally as well as conducting an election at the 
same time, needs to have a word of compliment lifted up for him 
as well.
    Mr. Delahunt. If I can make one additional observation, Mr. 
Chairman. I think what was, particularly for Mr. Conyers and 
myself, a rather poignant and symbolic experience, was that he 
and I observed at a particular polling place that earlier in 
this decade was a polling place where a massacre of some 30-odd 
Haitian citizens who went to vote were assassinated by members 
of the Haitian military, which no longer exists since it has 
been abolished. I think we were both euphoric that our 
observation indicated that the elections were free, they were 
without any undue influence, and they clearly were well 
monitored by the Haitian National Police, and there was not any 
indication of any violence or any duress whatsoever.
    So while there is much to do in Haiti and I don't mean to 
overstate the case, it clearly stood in stark contrast to what 
occurred earlier in this decade.
    Mr. Conyers. You are certainly correct, it was very moving, 
that one particular polling place itself a school and you know 
we couldn't help but think that there were many people voting 
there who knew exactly what we knew that this had been the site 
of an Election Day massacre by the Haitian military. It was now 
perfectly peaceful all-day long; it was crowded, and when we 
returned, people were preparing the ballots, the various 
political parties were there, the parties had their observers 
witnesses and each ballot was opened up, and the numbers called 
off and the recording of the balloting went on.
    There were spirited challenges from time to time, but it 
was a very encouraging process. I think we are taking this 
first giant wobbly step forward. I want to thank, from the 
bottom of my heart, all the Members of the International 
Relations Committee for the concern and cooperation they 
visited on us as CODEL after CODEL, including members of the 
Committee, and others not on the Committee, were permitted to 
go back to Haiti to work and struggle for this common 
objective.
    Mr. Delahunt. If I may, Mr. Chairman, I think it would be 
incumbent on us, and we would be remiss if we did not 
acknowledge, that members of our staffs volunteered to come and 
to accept what was a dangerous challenge, and I would 
specifically point out, Ms. Cynthia Martin from Mr. Conyers' 
staff, and Charisse, from Don Payne's office, and my own Cliff 
Stammerman as well as Sean Carroll. They were extraordinary in 
terms of their commitment, they worked hard, it was 18-hour 
days, and there was much concern about their safety, but the 
end result was a very positive one.
    Mr. Gallegly. Thank you very much, Bill. The gentleman from 
New Jersey, Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman and I will be 
very brief. I am not a Member of the Committee. I appreciate 
the opportunity to say a word or two. Primarily I want to 
compliment Mr. Conyers on the continued respect that he has in 
Haiti, and in other areas, but he is very well respected there. 
There is always an out pouring of people to visit with him. 
Also, I would like to indicate what a great addition to the 
House Mr. Delahunt is, especially his interest in Haiti and his 
going down there several times with Mr. Conyers. I was on one 
trip with him. I was unable to get there the week of the 
election but I went the previous week, wanted to make sure that 
everything was taken care of everything was in hand. We didn't 
want them to run into any kind of trouble.
    Mr. Delahunt. It was John the Baptist leading the way.
    Mr. Payne. But I did have a chance to meet with the 
President and former President Aristide and the Election 
Commission and OAS representatives, and the opposition party 
people. We did feel some apprehension about whether all those 
ballots were going to get there in time and all those photo 
ID's were right. As Mr. Conyers said, there were, of course, 
enough errors to go around, but if you take a look at the 
overall election, I think that it was a step in the right 
direction, moving toward democracy, any kind of impediment did 
not necessarily impact the overall outcome, and I think that is 
what we looked for.
    I also would like to compliment Ambassador Steinberg, who 
really kept us very prepared and briefed. Having worked in 
Angola, Haiti is easy for him in comparison. But finally, as 
you know, the police department for of all of Haiti, 8 million 
people or more, is about 4,000 people. The same population of 
New York City, has 10 times as many policemen. They have 40,000 
policemen in New York City. We saw recently in Central Park, a 
few people got out of hand with large numbers of policemen 
being unable to prevent this from happening.
    When we do look at that, and we hear the criticism of, I 
think Mr. Conyers made it clear, this was not the greatest 
election in the world, but it was certainly, I think, a very 
great step in the right direction. When you look at 4,000 
policemen for the entire country of Haiti, like I said, as 
opposed to 40,000 in New York alone, I think when we keep 
things in its proper perspective, we can be appreciative.
    Finally, Mr. Menendez, as you note, was a Ranking Member of 
this Committee during the last session, and much of what we see 
happening and moving forward at this time certainly did not 
just happen over night, and that his shepherdship of the 
Committee and what was going on in Haiti during the previous 
Congress, I would like to also thank him for the interest that 
he has shown in the area.
    Thank you, Mr. Chairman.
    Mr. Gallegly. Thank you, Mr. Payne. Thank you, John, for 
your testimony, and we appreciate your being here this 
afternoon.
    Mr. Conyers. Thank you, sir, very much.
    Mr. Gallegly. Mr. Secretary. We welcome Ambassador 
Gutierrez here this afternoon, and with that, we would welcome 
your testimony.

   STATEMENT OF AMBASSADOR LINO GUTIERREZ, PRINCIPAL DEPUTY 
   ASSISTANT SECRETARY FOR THE BUREAU OF WESTERN HEMISPHERE 
   AFFAIRS, DEPARTMENT OF STATE; ACCOMPANIED BY RAND BEERS, 
    ASSISTANT SECRETARY FOR INTERNATIONAL NARCOTICS AND LAW 
                      ENFORCEMENT AFFAIRS

    Mr. Gutierrez. Thank you very much. Mr. Chairman, it is a 
pleasure to be here. In the interest of time and brevity and to 
allow for your questions, I would like to touch briefly upon 
the seven areas you asked me to address in my testimony. I have 
prepared a comprehensive written statement that I have 
submitted to the Subcommittee for its consideration.
    Mr. Gallegly. It will be made a part of the record of the 
hearing in its entirety without objection.
    Mr. Gutierrez. Thank you. Mr. Chairman, recent events show 
that democracy remains vulnerable in some countries in the 
hemisphere. It is important to remember, however, that 
democracy is a continuing process, not a final achievement. I 
would argue that despite some setbacks, democracy in the 
hemisphere continues to flourish. Thirty-four of the 35 
governments in the region came to power through the ballot box. 
Our relationship with our neighbors is excellent. Regional 
integration and interdependence are strong and continuing to 
increase. As a result, our interests in the Western Hemisphere 
are vitally important to the United States, vitally important 
to our security, to our economic well-being and to the future 
of our children. It is essential that the Administration and 
Congress continue to work together actively to manage and 
resolve challenges and to take advantage of opportunities in 
the Hemisphere.
    Turning to the situation in the seven countries, the 
Subcommittee has asked me to address, Peru's experience with 
democracy is checkered. Despite requests from the Organization 
of American States, the U.S. Government and the national 
community to postpone the second round of presidential, 
elections in order to verify conditions for a fair contest, 
President Fujimori chose to go ahead with a contest on May 
28th. Opposition candidate Alejandro Toledo decided not to 
participate in the elections and called on supporters to 
boycott or to cast null votes. Domestic and international 
observers, including the OAS, did not monitor the contest.
    President Fujimori won the May 28th election with 51 
percent of the votes cast, but the results underlined the 
country's political polarization. About half either cast votes 
in favor of Toledo, about 17 percent, or deliberately spoiled, 
their ballots, 32 percent. Tens of thousands protested the 
contest across Peru with minimal violence.
    The OAS Electoral Observation Mission called the electoral 
process flawed. We support their findings. The elections were 
not free and fair. The resolution approved by the OAS General 
Assembly last week reflects our concerns regarding the 
credibility of the electoral process and represents an 
important building block for restoring democratic institutions 
in Peru. It asks that OAS Secretary General Gaviria and 
Canadian Foreign Minister Axworthy go immediately to Peru to 
develop recommendations and an action plan to reform the 
judiciary and electoral systems and to strengthen press 
freedom. The Mission will report back to the OAS Foreign 
Ministers for endorsement of the plan and to ensure active OAS 
followup.
    We support this OAS Mission. It is in the U.S. Government's 
interest to give this initiative time to prove itself. Yet we 
have specifically warned that the U.S. reserves the right to 
respond appropriately to the progress made by the Government of 
Peru. We also share the concern expressed by Congress in Senate 
Joint Resolution 43 and are preparing to review our bilateral 
programs. Any eventual decision on sanctions will be influenced 
by Peru's response to the OAS Mission and the reforms 
undertaken.
    Haiti is the second country that faces a challenge to 
democracy. Indeed, since the January 1999 dissolution of 
Haiti's parliament, most of the country's local and national 
governmental bodies have either been absent or unable to 
fulfill their critical role in helping Haiti address its most 
severe challenges. To end this irregular situation, the United 
States--including many dedicated Members of this Subcommittee--
has devoted considerable effort to bringing about a free, fair 
and transparent election.
    On May 21st, the first round of the long overdue local and 
parliamentary elections was held. Voter turnout was high as 
Haitians from all walks of life embraced this democratic 
exercise.
    The post election period has been beset with serious 
problems, however. The most prominent problem thus far is the 
possible use by the Provisional Electoral Council of a 
methodology that fails to tabulate all ballot votes cast in the 
Senate races, as prescribed in the election law. This 
alternative methodology would seriously distort the outcome of 
those races. The Organization of American States Electoral 
Observation Mission has requested a retabulation of votes fully 
consistent when the guidelines. We support the OAS position.
    The stakes in Haiti's electoral process are high. This 
process, which anticipates a runoff election on June 25th, the 
seating of a parliament in mid July, and Presidential elections 
in November is the means through which democratic and fully 
responsible government can be restored and empowered. The 
expectations of Haitians must be validated by a process that is 
fully credible, free, fair and transparent from its start on 
the day of the vote to its end when the votes are tabulated and 
the newly elected officials are installed into office.
    Let me turn to Venezuela where a lengthy political 
transition continues. The Supreme Tribunal, Venezuela's Supreme 
Court, postponed the country's Presidential legislative, state 
and municipal elections scheduled for May 28th. It did so in 
acknowledgment of continued serious technical problems in the 
automated voting system. It was the right decision.
    The Tribunal acted in response to a petition from concerned 
NGO's, a positive sign in our opinion. The engagement of civil 
society in highlighting the need for postponement was a sign of 
mature democratic process. So was the decision of the 
Venezuelan authorities to support their request before the 
Tribunal.
    The election officials responsible for the problems have 
now been replaced by well-respected, apolitical individuals 
nominated by a variety of nongovernmental institutions and 
vetted by a roundtable of representatives of civil society. The 
interim legislature has not yet set a new date, but July 
elections are still possible. The U.S. Government provided 
financial support for both an OAS election monitoring mission 
and a Carter Center mission, which played constructive roles 
during the campaign. We anticipate providing the same level of 
support in the upcoming elections as well.
    In Mexico, voters will go to the polls on July 2nd to elect 
a new President and new Congress. It is not an exaggeration to 
say that these elections are a potential watershed in Mexico's 
democratic evolution. The campaign has been the most open in 
Mexico's history and we expect the vote itself will be too.
    There has been public speculation in Mexico and elsewhere 
about the possibility of electoral fraud. Frankly, I would be 
surprised if there were no allegations of irregularities after 
the vote. But a vast and impressive array of safeguards has 
been created over the past 6 years to prevent systemic fraud 
and to guarantee the integrity of the Mexican vote.
    We have confidence in Mexico's independent Federal 
Electoral Institute, the IFE, which is charged with organizing 
and managing the elections. It has done a great deal already to 
level the political playing field and set the stage for free 
and fair elections.
    Mr. Gutierrez. [Continuing.] I saw this firsthand during a 
recent trip to Mexico. Since 1994, in midterm congressional and 
local elections the opposition has made unprecedented inroads. 
Over a third of all Mexicans live in states run by opposition 
Governors, and the PRI no longer has a majority in the Mexican 
Chamber of Deputies.
    We expect there will be a number of international observers 
in Mexico for the election. The Mexican government, the IFE and 
the political parties themselves have welcomed this. The U.S. 
is funding an electoral observation mission organized by the 
International Republican Institute and the National Democratic 
Institute, and various other U.S. NGO's are also sending 
observers.
    Ecuador is another country that faces threats to its 
democracy. The situation, however, has improved dramatically 
since January, when field-grade Ecuadorian military officers 
and indigenous leaders attempted to install a new government. 
As this revolt developed and both the military and police 
declined to enforce public order, the United States, Ecuador's 
neighbors, and the OAS Permanent Council immediately issued 
strong statements rejecting any interruption in the democratic, 
constitutional order. Facing the prospect of political and 
economic isolation, on January 22nd President Mahuad urged the 
country to support Vice President Gustavo Noboa as his 
constitutional successor and Congress confirmed Noboa that day.
    Ecuador is not out of the woods, but it is making progress. 
The Noboa government has been able to pass through Congress 
badly needed economic reforms and to begin the process of 
implementing those changes. The Noboa Administration has met 
with indigenous communities and sought to initiate social 
programs targeting the poor. Military leadership has been 
changed, removing those who did not act in support of Ecuador's 
constitution or its leaders. An amnesty to those who were 
involved in the coup has created the possibility of 
reconciliation and has helped defuse a potentially explosive 
situation while allowing military authorities to impose 
administrative sanctions against participants.
    On May 25th, the Noboa Administration announced fiscal 
reforms. Protests have so far been muted. An IMF team is 
currently in Ecuador to examine the fiscal implications of 
these measures, as well as banking sector developments, and 
other issues in the context of its first bimonthly review of 
Ecuador's IMF Standby Program.
    The next few months will be critical to the success of 
Ecuador's economic reforms. President Noboa has been making the 
right political and economic moves and recognizes that these 
strict reforms are necessary to improve economic conditions and 
opportunities for all of Ecuador's citizens.
    Turning to Paraguay, where the unsuccessful coup attempt of 
last May 18th and 19th demonstrates that Paraguayan democracy 
continues to face serious challenges. These include corruption, 
economic stagnation, rural discontent and some anti-democratic 
elements among the middle and lower ranks of the military. 
There are significant factional divisions within both parties 
in the governing coalition as well as within the opposition. 
These challenges have complicated the government's ability to 
govern effectively.
    It is important to note the lack of military, political, or 
popular support for the unsuccessful uprising, which was led by 
supporters of former general and convicted coup plotter Lino 
Oviedo. The military leadership and the vast majority of 
military units demonstrated their commitment to democracy, 
civilian control and the constitutional order. Since the 
assanation of Vice President Argana in March of last year, 
Oviedo appears to have lost much of his public support, and he 
remained a fugitive from Paraguayan justice until his recent 
detention in Brazil.
    Nonetheless, much of the population lacks hope and few see 
the current situation as acceptable. We continue to urge 
Paraguay's leaders to agree on a vision for the country, to 
take sustained action against criminal activity and corruption 
and to implement economic reform. These steps are necessary if 
Paraguay's democracy is to be secure.
    Finally, let me also comment briefly on events in Colombia. 
In the Pastrana Administration, the U.S. has a full and 
committed partner that shares our counternarcotics goals. 
Delays in implementing the U.S. assistance package for Colombia 
will not only adversely affect the counternarcotics efforts 
made by the government of Colombia but also our own efforts to 
upgrade the government's ability to counter this threat. Ninety 
percent of the world's supply of cocaine is grown, processed or 
transported through Colombia. Because of this, we appreciate 
the House's rapid action in response to the Administration's 
supplemental request for Colombia.
    With the delay in funding, Colombia's drug production can 
be expected to continue its massive expansion. In 1999, the 
U.S. sprayed over 42,000 hectares of coca and over 8,000 
hectares of poppy. Despite this, coca cultivation in Colombia 
reportedly increased by over 20,000 hectares during the same 
year. Yet we now actually have had to cut back our aerial 
fumigation operations by 50 percent and lay off spray pilots 
because of funding shortfalls. This means nearly 5,400 acres 
per month are today not being taken out of cultivation that 
would have been if the cutbacks were not required. We also have 
been unable to begin a significant planned expansion of 
eradication capability. Left unchecked, skyrocketing trends in 
Colombian production will also reverse impressive progress in 
Bolivia and Peru where coca cultivation has gone down 55 
percent and 66 percent respectively since 1995.
    We have also had to suspend forward deployment of the UH-1N 
helicopters intended to provide air mobility to the first 
counternarcotics battalion because of the lack of funding for 
additional flight hours, training, repair parts, fuel and other 
logistic support. Without these helicopters, the Colombian 
army's first counternarcotics battalion--specifically created 
with U.S. funds to go after drug targets--has not been able to 
complete its training to be fully prepared to conduct effective 
operations.
    In the field of drug interdiction, the delay will result in 
no upgrades for detection and monitoring aircraft before 
January, 2001, derailing a project that promises to have 
immediate results. The Colombia national police will also be 
denied critical force protection improvements to its existing 
forward bases, secure communications and an additional air 
mobile unit.
    Other important interrelated programs to be funded by the 
Colombia emergency supplemental package are also on hold, 
including those that would strengthen the justice system, local 
government and civil society, as well as increasing our 
assistance to internally displaced persons.
    Mr. Chairman, let me close by acknowledging the tremendous 
challenges faced by the countries of the region. The roots of 
democracy in our hemisphere, while widespread, are still 
shallow. Events in Paraguay, Peru, Ecuador and elsewhere 
reflect the vulnerability of democracy in some countries. 
However, the overall democratic trend is positive. Never have 
as many citizens of the Hemisphere freely elected their 
leaders, been able to read free newspapers, join 
nongovernmental organizations and freely express their views 
without fear of persecution. Nations today cooperate with each 
other as never before to address threats such as narcotics and 
arms trafficking, corruption, and money laundering--issues 
which respect no borders. Those who would attempt to subvert 
the democratic process in the Americas will face a united 
hemisphere opposing them.
    This is not to say that democracy in the region is home 
free, far from it. There will be occasional setbacks, and there 
is no question that we must remain engaged. But I am convinced 
that the citizens of Latin America and the Caribbean will fight 
to preserve the freedom that took so long to achieve. The 
Administration looks forward to working with the Congress to do 
our very best to help them.
    Thank you very much.
    Mr. Gallegly. Thank you very much, Mr. Ambassador.
    [The prepared statement of Mr. Gutierrez appears in the 
appendix.]
    Mr. Gallegly. I just have a couple things that I want to go 
over before I defer to Mr. Menendez.
    With respect to the election in Peru, the coup in Ecuador 
and the attempted coup in Paraguay, can you tell me what these 
say about the depth of the democratic values in Latin America 
and the stability of the region? Do you see it as a systemic 
problem or is it an Andean situation?
    Mr. Gutierrez. I think the conditions vary throughout the 
Hemisphere. As I said, the roots of democracy are not as deep 
in every country; and recent events have shown that.
    I also agree with statements made here before me that 
democracy is more than holding free elections. Institutions 
have to be strengthened, we have a long way to go in achieving 
that. But I would not say this is a systemic problem throughout 
the Hemisphere. It differs from country to country.
    Mr. Gallegly. Would you say that we are slipping back a 
little bit, or do you think this is just an ongoing issue, for 
which we have to continue to be vigilant?
    Mr. Gutierrez. I think democracy in the Hemisphere is a 
process, and there will be some setbacks, but I think the 
overall trends remain very positive. I think the Hemisphere is 
better prepared to deal with events like we have witnessed 
before.
    For example, had the Paraguayan coup attempt taken place 10 
years ago, you might have a military government now in place. 
But the fact that the Hemisphere stands united and ready to 
react to these interruptions of constitutional order I think is 
a very positive development.
    Mr. Gallegly. Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman.
    Mr. Ambassador, I have the greatest deal of respect for 
you, having had some time with you when you served a fellowship 
in my office. However, you know that when it comes to 
questions, I don't restrict myself, even though I have a great 
deal of respect for you.
    So let me start off by noting that, in your statement you 
say 34 of the 35 governments in the region came to power 
through the ballot box. But would we not eliminate from those 
34, at least for now, Paraguay, Ecuador, and Peru? The present 
governments came in through some unconstitutional process; and, 
in the case of Peru, while there was an election, we, from your 
own statements, question that election.
    So it seems to me that the numbers of democracies are in 
flux, and we need to recognize that. We may have at some time 
seen elections, but in the present set of circumstances those 
countries in my mind cannot fall within the context of saying 
that they have achieved democracy at the ballot box; and we 
know that even that, in and of itself, is not the true test of 
democracy.
    My second point is, you state at page 12 something that I 
thoroughly agree with. You say that the stabilizing threats 
posed by income inequality and poverty must be addressed. You 
say that, through improving basic social services, health care 
and education, governments can help to broaden the reach of 
economic opportunity by providing opportunities and incentives. 
Many elements of society can be pulled into the political and 
economic mainstream and thereby strengthen democracy. I agree 
with that fully.
    But what I cannot understand, when we have you and we have 
Ambassador Romero and so many others from the State Department 
come before the Committee and speak in such terms that you--you 
meaning the Department--oppose the Latin American Development 
Fund. Every time that we in fact seek to promote efforts for a 
Latin American Development Fund, which aims, in essence, to 
create a funding floor and to ensure that regional funds for 
developmental purposes don't get stolen whenever there is a 
global emergency, we have opposition from the State Department. 
Trade alone cannot possibly deal with the 40 percent or so of 
those people who are below the poverty level in the Southern 
Hemisphere; you cannot tell a Brazilian child that trade is 
going to lift his or her future.
    We need to have the State Department begin to engage with 
us in understanding that some of the development issues that we 
have within the Hemisphere need to get better attention or we 
will continue to find ourselves in this discussion of democracy 
without the underpinnings necessary for that democracy to fully 
flourish. Your statements are right on the mark, but your 
Department continues to oppose us in developing a Latin 
American Development Fund. We need such a fund so that we can 
begin to move forward.
    The Chairman of the Subommittee has expressed in the past 
very sincere interest on illegal immigration, but we are not 
going to stop illegal immigration coming through the borders of 
the Southern Hemisphere unless we change the quality of lives 
in the Southern Hemisphere and the economic realities that they 
face. We are not going to stop the flow of drugs into the 
United States until we have sustainable developments that 
sustain a family growing crops in Colombia that are not coca 
crops, because that is the most available and the most worthy 
economically for them to sustain their families. Yet we are 
going to do this all through trade?
    So my second point to you is, why do we not have the 
Department being supportive of development assistance that is 
enhanced and that is particularly focused on Latin America?
    The third point that I would like your remarks on is the 
election in Peru, which I think is a real concern. The Clinton 
Administration first called Mr. Fujimori's victory a threat, 
and then I have sensed a back-pedaling from that. We are 
seeking a strong, collective response, which is fine, at the 
OAS, but my sense is that there is little sign of the members 
from those respective states who want tough sanctions on Mr. 
Fujimori's Peru, much less a new election.
    What is at risk here? I mean, if all we are going to do is 
rattle our sabres about democracy, permit what is even a 
questionable election, what message are we sending in the 
hemisphere? I would like to hear whether the State Department 
considers that a constitutional validly third term?
    We will rattle our sabres about democracy, but if you have 
an unconstitutional third term, if you have a lack of the type 
of elections that are fair and free, if you permit a process to 
take place that doesn't provide for truly representative 
democracy at least in the first instance, then where are we 
going?
    If you read the Senate resolution which calls on the 
Administration to review and modify, as appropriate, its 
political, economic and military relations with Peru, presuming 
that the OAS mission doesn't come back and really give us a 
sense that there is a meaningful response, are we talking about 
an action that some would consider a sanction?
    Mr. Gutierrez. Congressman, let me just reciprocate and say 
I have the upmost respect for you. As a matter of fact, when I 
was a fellow in your office, I worked on the predecessor of the 
Latin American Development Fund. I understand the concept. I 
believe on that issue the objection of the State Department is 
to any earmarkings of that type. But let me just say that we 
agree with the spirit of what the Latin American Development 
Fund is trying to accomplish in the region, and we are 
certainly willing to work with you on those objectives.
    Mr. Menendez. We hope the spirit will move you and the 
Department.
    Mr. Gutierrez. On the 34 out of the 35 elected governments 
in the Hemisphere, your point is well taken. One would argue 
semantically that the Vice Presidents of Ecuador and Paraguay 
were elected freely to their previous positions--which put them 
in line for the presidency, and Mr. Fujimori has not yet been 
inaugurated for a third term, but we may have to adjust those 
numbers in the future. We take that point.
    On Peru, I would say that, in general, I think that the 
Hemisphere has reacted well to Peru. We went up to the Windsor 
OAS General Assembly with three objectives. We sought an 
endorsement of the Stein report. Mr. Stein was the former 
Foreign Minister of Guatemala who went to Peru and uncovered 
all the irregularities. We wanted some sort of followup 
mechanism, some high-level delegation to go to Peru and 
facilitate a dialogue between government and opposition.
    We did not want this report buried in the way many actions 
get buried in some of these organizations, so we wanted the 
Commission to report back to foreign ministers. I would argue 
we got all three objectives--the Hemisphere spoke with a united 
voice, they sent Mr. Axworthy in his capacity of Chairman of 
the General Assembly, and Mr. Gaviria. They gave them a mandate 
to go to Peru and talk with the government about much-needed 
democratic reforms--reforming the judiciary, reforming the 
electoral system, maybe reforming the way deputies are elected, 
et cetera. They will carry that mandate to Peru, and we support 
that mission. They will come back and report to the foreign 
ministers of the Hemisphere.
    Now we have not ruled out taking some unilateral actions on 
our own should we not be satisfied with the report of this 
Commission, and we are beginning to look at some possible 
unilateral actions should they be called for. But at this time 
we support the OAS Mission. We would like to give the OAS 
Mission a chance to see what it can accomplish in Lima.
    At the same time, I would point out that the opposition--
the Peruvian opposition--supported the findings in Windsor and 
are very much supportive of this process. So I think we ought 
to let this process play out before deciding on what the next 
step should be.
    Mr. Menendez. Two last questions, if I may, Mr. Chairman. 
Number one is, does the Department, since it doesn't support 
earmarks, not support the Development Fund for Africa?
    Mr. Gutierrez. I will have to get back to you on that, 
Congressman. That is--my Bureau was not, as you know, involved 
in those decisions, but I will I think----
    Mr. Menendez. Please get back to me. Because we have a 
Development Fund for Africa. We seek to fund it annually, and 
we do fund it annually, and I think it is important. As the 
former Ranking Member of the African Subcommittee I support it.
    But I do not see how you can say that an African fund is 
supported by the Department, which I believe it does, and then 
say the Latin American Development Fund--for development here 
at the doorstep, at the front porch, at the very entrance to 
the United States, with direct relationships on questions of 
biodiversity, questions of immigration, questions of drug 
interdiction, questions about developing greater markets, 
questions of movement of health problems across borders--makes 
less sense.
    My second question is maybe a point more than a question. 
Not only am I concerned about this election in Peru and what 
has happened--I didn't hear you answer me on whether or not the 
Administration believes that this is a valid third 
constitutional period; that is a period of three consecutive 
elections is valid under the Peruvian constitution. I would 
like to hear the Administration's answer to that.
    I am also concerned by several examples of the 
authoritarianism I have seen happening in Peru over the last 
several months leading up to this election. American companies 
working in Peru are finding themselves increasingly with rather 
authoritarian nontransparent decisions being rendered against 
them. We have an airline whose existing licenses are 
potentially being arbitrarily withheld. We have another 
American company that legitimately exported a product out of 
Peru and now finds itself with literally millions of dollars 
being held arbitrarily by the Peruvian government as it relates 
to certain taxes that are normally refundable, but that now 
they don't wish to refund.
    I think there are some serious concerns about what is going 
on in Peru, both in the context of its electoral process--
whether or not this is a valid third term that anyone could 
have had under the constitution--how American companies--and, 
therefore, I would assume other companies as well--but at least 
American companies, are having difficulties in dealing in Peru 
while obeying all of the laws and arbitrarily being treated in 
ways that would defy a series of both countries' treaties as 
well as GATT provisions as well as other international norms.
    My sense in this is that we are dealing rather gingerly 
with them; and my question is, for how long are we going to 
take that approach? I hope that we are just not going to 
acquiesce in the process to an election that is highly 
questionable, a third term that is really in doubt, and 
ultimately for American companies to be treated through such an 
authoritarian manner which violates their very rights.
    This is where we need to speak up, and I hope we will do 
so. I understand the desire to have collective speaking on 
behalf of the hemisphere's nations, and I hope they will do it 
strongly, but if not there are American interests that 
sometimes have to be promoted and that we have to stand, if 
necessary, unilaterally to do so.
    Mr. Gutierrez. We have spoken out quite a bit on the 
Peruvian elections. We stand by every statement we have made 
throughout this process. The OAS found that this election was a 
flawed election, and we agree with that assessment. So it is 
critical that this mission succeed and come back with measures 
that will enhance democracy in Peru, and we support this 
mission going down there.
    On American companies, we stand ready to aggressively 
support them in any problems they might have with the Peruvian 
government. I am not aware of these instances that you have 
mentioned, but I would be glad to look into them. Certainly we 
stand ready to support American companies with any problems 
they might have in Peru.
    Mr. Menendez. Is this a constitutional third term?
    Mr. Gutierrez. Not being a Peruvian legal expert, let's say 
that many observers have questioned whether, in fact, Mr. 
Fujimori legally could run for a third term. For whatever 
reason, Peruvian legal authorities decided that he could. I 
think right now the focus must be, however, on supporting the 
OAS mission going down there and seeing what they can 
accomplish and facilitating a dialogue between the government 
and the opposition.
    Mr. Menendez. Considering that he fired the three judges 
that were in opposition to the third term, I don't know how it 
is valid.
    Thank you, Mr. Chairman.
    Mr. Gallegly. Thank you Mr. Menendez.
    If we could move over to Colombia just for a second, Mr. 
Ambassador. You commented that the situation in Colombia it 
looks fairly bleak and that the situation is likely to get 
worse rather than better. I guess that confuses a little bit 
about the impact of our supplemental.
    You also mentioned that the fumigation flights have been 
cut back 50 percent, but weren't these flights fully funded or 
are they appropriations in the supplemental budgeted for fiscal 
year 2000? If that is the case, why are we running out of money 
already?
    Mr. Gutierrez. With your permission, I have asked Assistant 
Secretary Rand Beers from the Bureau of International Narcotics 
and Law Enforcement to assist me in some of these questions.
    Mr. Gallegly. That is fine.
    Mr. Beers. Thank you, sir.
    With respect to the second half of your question, first let 
me speak specifically--if you will recall, sir, with respect to 
fiscal year 1999 and the funds available to the State 
Department, the Western Hemisphere Drug Elimination Act, in 
addition to regular funding, had been made available to the 
Department at that particular point in time. With those funds 
we were able to mount in fiscal year 1999 a very robust 
program. When we came upon fiscal year 2000, we were faced with 
the funds allowed being lower or less than the funds that were 
available in fiscal year 1999, but we were moving in the 
direction of requesting supplemental funds, and then we finally 
did request those funds.
    In that context, I know the Front Office, together with the 
members of the Country Team, made a strategic decision to try 
to sustain the level of effort that had been mounted in fiscal 
year 1999 into year 2000 with the expectation that we would be 
receiving supplemental funds for Plan Colombia in a timeframe 
of May or June. As it became apparent in the discussions and 
deliberations between the two Houses earlier this spring that 
that assumption was no longer valid, we chose to pull back to a 
funding level that would allow us a level amount of funds 
remaining available until the end of the fiscal year.
    What that essentially amounted to was a 50 percent 
reduction from the time it began, which was the beginning of 
May, until such time as funds from Plan Colombia are available, 
a 50 percent reduction in the amount of eradication effort that 
we were able to mount and a pullback from the UH-1N in air 
mobility components of the counternarcotics battalion that we 
were prepared to support, fund and put in the field. Those two 
principal elements represent the core of our inability to move 
forward at previous levels with existing funds. In short, we 
had more money in fiscal year 1999 than we had in fiscal year 
2000 without Plan Colombia supplemental funds.
    With respect to the first question, it is our strong belief 
that the funds that could be made available under Plan Colombia 
represent the single most important investment that Congress, 
and the United States has the opportunity to make on behalf of 
our citizens in the struggle against drugs in this Hemisphere, 
certainly during my entire tenure as a counternarcotics 
official which stretches back over 12 years and three 
administrations.
    Mr. Gallegly. Thank you very much.
    As you have heard, there is a vote on the Floor, a 
conference report.
    So, Bill, did you have anything you wanted to add quickly? 
Or, Mr. Menendez, would you like to come back or do you want to 
try to wrap this up?
    Mr. Delahunt. I will be real brief, Mr. Chairman. I just 
want to echo some of the observations by Mr. Menendez in terms 
of dealing in the long term with Latin America and Central 
America.
    When I hear the Ambassador speak to the issue of earmarks, 
that really doesn't address the need. I mean, we earmark in a 
variety of ways. Significant amounts of assistance go to Egypt 
and Israel. I think it has been very clear that our level of 
engagement--and I am not speaking of you and those that are in 
attendance here, because I know of your commitment to Latin 
America and what is occurring in this hemisphere. But I have to 
say that the engagement with this hemisphere really doesn't 
pass muster. It really doesn't. We have to make an effort, for 
the reasons enumerated by Mr. Menendez, to reengage with Latin 
America.
    We are missing opportunities, and the advances that have 
been made in terms of democracies I think I would suggest are 
at risk. It can't be simply by trade. I really do support his 
concept of a Latin American Development Bank; and we can't, 
simply accept the fact that the administration doesn't, believe 
or embrace earmarks. We have got to talk about substantial 
investment as well as trade.
    It is just my observation that, the idea of nurturing 
democratic institutions and independent judiciary and 
legislative bodies in terms of increasing their capacity to 
deal, because the democracies that exist have very significant 
executive authority. We are discussing democracies today that 
are elected, but some have expressed concerns, whether it be 
Venezuela, whether it be any of the democracies, there seems to 
be an imbalance between the traditional branches or components 
of democratic institutions. I really believe we have got to 
make a substantial investment in terms of assisting these 
nations as far as their judicial systems, as far as their 
legislative assemblies, as well as the executive.
    While I have an opportunity to just address one question I 
would address it to Ambassador Beers. Do you have any reports 
for us in terms of the status of the peace process in Colombia 
or in terms of discussions that I understand are just under way 
with the ELN and any reports in terms of the peace process as 
it relates to it.
    Mr. Gutierrez. If I may, Congressman, make a quick couple 
of points. I just returned as Ambassador to Nicaragua for 3 
years. I can tell you we do have significant programs in the 
region in helping judicial sectors, Administration of justice 
programs, police training programs, institution building 
programs, helping legislatures, helping corruption watchdogs, 
et cetera. So we are engaged in the Hemisphere; and, not only 
that, we are also poised to respond in times of emergency. I 
was in Nicaragua when Hurricane Mitch struck, and the response 
from the American Congress and the American public was indeed 
generous. It was timely. Our money got there more quickly than 
any other.
    Mr. Delahunt. I don't dispute that, and I know that the 
American people and this Congress and this Administration 
respond in terms of emergency. But what I am talking about is 
really the nurturing and development in the long-term basis of 
democratic institutions because I believe, that that is the 
intelligent investment so that we don't have these crises and 
that we continue with what I agree with is a trend in the right 
direction.
    Mr. Gutierrez. I can assure you we are doing it, and in 
Haiti----
    Mr. Delahunt. I think it is a question of degree, 
Ambassador. We can't do this on the cheap. We just can't do it 
on the cheap.
    Mr. Gutierrez. We can always do more, Congressman. You are 
right. But in Haiti, for example, we spent $16 million in 
ensuring that these elections take place, which is quite a 
significant achievement.
    Mr. Delahunt. Again, I want to be clear I want to 
compliment. But some suggested in Haiti, for example, that we 
have poured billions of dollars into Haiti. The reality is that 
we have poured--a great substantial piece of that billions of 
dollars was to--was in the aftermath of the coup, was to house 
people in Guantanamo, was to pick up refugees, the sending of 
some 20,000 American troops to Haiti.
    So when we talk about building institutions I dare say it 
is a more intelligent investment to do that rather than to be 
responding to crises such as occurred in Haiti in the aftermath 
of the coup and prior to the return of Aristide and democracy 
to Haiti. Because that cost us a lot of money. That was a 
billion plus.
    Mr. Gutierrez. We are doing quite a lot, but I think we can 
always do more.
    Mr. Beers. Sir, with respect to your question, the peace 
process--the ELN portion of the peace process is still not 
settled. Discussions continue. The FARC on-again, off-again 
peace process I guess you could say is on again. There is not 
much different from what you are seeing in the public domain. 
But if you would like to have a more detailed discussion of 
that in private we would certainly be happy to have someone 
come up and sit down with you and good over that in detail. I 
know your strong interest in that subject.
    Mr. Gallegly. Thank you very much for your attention today. 
Thank you, Mr. Ambassador, for your testimony; and, Secretary 
Beers, thank you for being here.
    With that, we will adjourn the Subcommittee.
    [Whereupon, at 3:45 p.m., the Subcommittee was adjourned.]
      
=======================================================================



 
                            A P P E N D I X

                             June 14, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T5849.001
    
    [GRAPHIC] [TIFF OMITTED] T5849.002
    
    [GRAPHIC] [TIFF OMITTED] T5849.003
    
    [GRAPHIC] [TIFF OMITTED] T5849.004
    
    [GRAPHIC] [TIFF OMITTED] T5849.005
    
    [GRAPHIC] [TIFF OMITTED] T5849.006
    
    [GRAPHIC] [TIFF OMITTED] T5849.007
    
    [GRAPHIC] [TIFF OMITTED] T5849.008
    
    [GRAPHIC] [TIFF OMITTED] T5849.009
    
    [GRAPHIC] [TIFF OMITTED] T5849.010
    
    [GRAPHIC] [TIFF OMITTED] T5849.011
    
    [GRAPHIC] [TIFF OMITTED] T5849.012
    
    [GRAPHIC] [TIFF OMITTED] T5849.013
    
    [GRAPHIC] [TIFF OMITTED] T5849.014
    
    [GRAPHIC] [TIFF OMITTED] T5849.015
    
    [GRAPHIC] [TIFF OMITTED] T5849.016
    
    [GRAPHIC] [TIFF OMITTED] T5849.017
    
    [GRAPHIC] [TIFF OMITTED] T5849.018
    
    [GRAPHIC] [TIFF OMITTED] T5849.019
    
    [GRAPHIC] [TIFF OMITTED] T5849.020
    
    [GRAPHIC] [TIFF OMITTED] T5849.021
    
    [GRAPHIC] [TIFF OMITTED] T5849.022
    
    [GRAPHIC] [TIFF OMITTED] T5849.023
    
    [GRAPHIC] [TIFF OMITTED] T5849.024
    
    [GRAPHIC] [TIFF OMITTED] T5849.025
    

</pre></body></html>
